Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




     COMMUNITY LIVING
  ASSISTANCE SERVICES AND
  SUPPORTS PROGRAM: 2011
    REPORT TO CONGRESS




                    Daniel R. Levinson
                     Inspector General

                     December 2011
                     OEI-04-11-00450
THE CLASS PROGRAM: 2011 REPORT TO CONGRESS

OEI-04-11-00450

CLASS PROGRAM STATUS

On October 14, 2011, the Secretary of Health and Human Services (HHS) informed
Congress that HHS had not identified a Community Living Assistance Services and
Supports (CLASS) program benefit plan that is both actuarially sound for the next
75 years and consistent with the requirements of Title VIII of the Patient Protection and
Affordable Care Act of 2010 (the CLASS Act). Following this announcement, HHS
suspended program implementation activities.

WHY WE DID THIS STUDY

Effective January 1, 2011, the CLASS Act established the CLASS program as a federally
administered, voluntary insurance program to help working adults cover some costs of
long-term-care services and supports. The CLASS Act requires the HHS Office of
Inspector General (OIG) to submit an annual report to the Secretary and Congress on the
overall progress of the CLASS program and the existence of waste, fraud, and abuse in
the program. Each report must include findings in four areas: providing cash benefits;
determining eligibility; providing quality assurance and protecting against waste, fraud,
and abuse; and recouping unpaid and accrued benefits.

HOW WE DID THIS STUDY

We reviewed progress in the development of the CLASS program from March 23, 2010,
when the CLASS Act was enacted, through October 14, 2011, when program activities
were suspended. This review focuses primarily on the Administration on Aging’s (AoA)
activities in the four areas specified in the CLASS Act’s OIG annual reporting
requirement after January 2011, when AoA became responsible for developing the
program. We obtained data about AoA’s progress from interviews with AoA senior
management, a questionnaire completed by AoA staff, and documents provided by AoA
to support interview and questionnaire responses.

WHAT WE FOUND

AoA focused most of its efforts on developing at least three actuarially sound benefit plan
alternatives, as required by the CLASS Act. The CLASS Act requires the Secretary to
designate one of these benefit plan alternatives as the CLASS Independence Benefit Plan
by October 1, 2012. As stated above, the Secretary informed Congress of the status of
the benefit plan on October 14, 2011.

WHAT WE RECOMMEND

The Secretary has not designated a viable benefit plan. Therefore, we have no
recommendations regarding program progress or the existence of waste, fraud, and abuse.
OIG will determine the most appropriate way to meet OIG’s CLASS Act reporting
requirements in future years based on the program’s status. AoA had no comments on
the report.
TABLE OF CONTENTS

Objective ......................................................................................................1
Status of the CLASS Program .....................................................................1
Background ..................................................................................................1
Methodology ..............................................................................................12
Findings......................................................................................................14
           I. Providing cash benefits ..............................................................14
           II. Determining eligibility .............................................................17
           III. Providing quality assurance and protecting against waste,
           fraud, and abuse .............................................................................18
           IV. Recouping unpaid and accrued benefits ..................................19
Conclusion .................................................................................................19
Agency Comments and Office of Inspector General Response.................19
Appendixes ................................................................................................20
           A: OIG Reporting Requirement in the CLASS Act ......................20
           B: Agency Comments ...................................................................21
Acknowledgments......................................................................................22
             OBJECTIVE
             To report progress in the development of the Community Living
             Assistance Services and Supports (CLASS) program.

             STATUS OF THE CLASS PROGRAM
             On October 14, 2011, the Secretary of Health and Human Services (HHS)
             informed Congress that she does not see a viable path for implementing
             the CLASS program. 1 This decision was based on results presented in the
             HHS report on the actuarial, marketing, and legal analyses of the CLASS
             program. 2 Following this announcement, HHS suspended program
             implementation activities. 3
             Title VIII of the Patient Protection and Affordable Care Act of 2010 (the
             CLASS Act) requires the HHS Office of Inspector General (OIG) to
             submit an annual report to the Secretary and Congress on the overall
             progress of the CLASS program and the existence of waste, fraud, and
             abuse in the program. Each report must include findings in four areas:
             providing cash benefits; determining eligibility; providing quality
             assurance and protecting against waste, fraud, and abuse; and recouping
             unpaid and accrued benefits. 4
             This report describes the Administration on Aging’s (AoA) activities prior
             to program suspension. OIG will determine the most appropriate way to
             meet OIG’s CLASS Act reporting requirements in future years based on
             the program’s status.

             BACKGROUND
             Effective January 1, 2011, the CLASS Act established the CLASS
             program as a federally administered, voluntary insurance program to help
             working adults cover some costs of their long-term-care (LTC) services
             and supports. LTC services assist primarily individuals with chronic
             illness or disabilities in their daily activities. 5 Nearly 70 percent of



             1 Kathleen Sebelius, Letter to Congress, October 14, 2011. Accessed at

             http://www.hhs.gov/secretary/letter10142011.html on October 15, 2011.
             2 HHS, A Report on the Actuarial, Marketing, and Legal Analyses of the CLASS Program. Accessed at

             http://aspe.hhs.gov/daltcp/reports/2011/class/index.pdf on October 15, 2011.
             3 Kathleen Sebelius, HealthCare Blog: The CLASS Program, October 14, 2011. Accessed at

             http://www.healthcare.gov/blog/2011/10/class10142011.html on October 18, 2011.
             4 Public Health Service Act (PHSA) § 3209.
             5 Centers for Medicare & Medicaid Services (CMS), What is Long-Term Care? Accessed at

             http://www.medicare.gov/LongTermCare/Static/Home.asp on October 4, 2011.


OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                               1
             Americans over age 65 will require LTC services at some point in their
             life. 6
             The CLASS program is intended to allow working individuals age 18 and
             older to purchase insurance that can help pay for future LTC services if
             they meet all eligibility requirements, including having qualifying
             functional limitations. 7 Individuals with qualifying functional limitations:
             •    are unable to perform at least two or three activities of daily living
                  (ADLs) without substantial assistance, 8, 9
             •    require substantial supervision to protect against threats to their health
                  and safety because of substantial cognitive impairment, or
             •    have a level of functional limitation that is determined under
                  regulations prescribed by the Secretary to be similar to the levels
                  described above. 10
             The purpose of the CLASS program is to:
             •    provide tools to allow individuals to maintain their personal and
                  financial independence while living in the community,
             •    establish infrastructure to help address the Nation’s community living
                  assistance needs,
             •    alleviate burdens on family caregivers, and
             •    address the tendency to place individuals with functional limitations in
                  institutional settings by providing a financial mechanism to support
                  community living. 11
             The CLASS program should increase access to in-home and community
             LTC services through a cash benefit that may enable eligible beneficiaries
             to avoid nursing homes and other more expensive care options for as long
             as possible. This may reduce reliance on Medicaid, which is jointly




             6 Prudential Research Report, Long-Term Care Cost Study, 2010. Accessed at
             http://www.hcbs.org/files/198/9879/LTCCostStudy.pdf on September 6, 2011.
             7 PHSA §§ 3201 and 3204(c) (describing individuals eligible to enroll); 3205(b) and 3202(6) (defining eligible

             beneficiary).
             8 The CLASS Act states that the minimum number of ADLs may be two or three. The Secretary will determine

             the minimum number and define the term “substantial assistance.” PHSA § 3203(a)(1)(C)(i).
             9 ADLs include bathing, dressing, using the toilet, transferring (e.g., to or from a bed or chair), caring for

             incontinence, and eating. PHSA § 3202(3).
             10 PHSA § 3203(a)(1)(C).
             11 PHSA § 3201.



OEI-04-11-00450          The CLASS Program: 2011 Report to Congress                                                           2
             financed by the Federal and State governments, to pay for LTC services. 12
             The Congressional Budget Office (CBO) estimated that the CLASS
             program would result in $2 billion in savings to the Medicaid program by
             2019. This estimate was based on the assumption that the program would
             collect premiums in 2011 and pay benefits in 2016. 13
             Overview of LTC Services
             LTC Services. LTC services include a variety of health and social services
             (e.g., assistive technology, meal delivery), but do not include medical
             treatments for acute and chronic conditions. 14, 15 LTC services often
             involve nonskilled assistance with ADLs but can also involve skilled
             assistance (e.g., providing physical therapy or monitoring a serious
             illness). LTC services can be offered in institutional settings (e.g., nursing
             homes) or in the home by hired attendants (e.g., home health aides) or
             family members. 16 LTC services are also provided in community settings
             (e.g., community centers offering adult day services). 17
             The annual costs of LTC services vary depending on the type and amount
             of care, the service provider, and the location. For example, care at home
             provided by a home health aide can cost $21 an hour. 18 The national
             median yearly rate for a room at an assisted living facility is




             12 The Federal Government paid 66 percent and State governments paid 34 percent of total Medicaid

             expenditures in 2009. National Health Policy Forum, The Basics: Medicaid Financing, February 4, 2011.
             Accessed at http://www.nhpf.org/library/the-basics/Basics_MedicaidFinancing_02-04-11.pdf on
             August 29, 2011.
             13 This estimate was based on the assumption that 3.5 percent of the adult population would participate in the
             program. CBO, Letter to the Honorable George Miller, Chairman of the Committee on Education and Labor,
             November 25, 2009. Accessed at
             http://www.cbo.gov/ftpdocs/107xx/doc10769/CLASS_Additional_Information_Miller_letter.pdf on
             August 29, 2011.
             14 National Clearinghouse for Long-Term Care Information, Definitions & Need for LTC. Accessed at

             http://www.longtermcare.gov/LTC/Main_Site/Understanding/Definition/Index.aspx on October 4, 2011.
             15 Assistive technology is any product or equipment used to increase, maintain, or improve the functional
             capabilities of individuals with disabilities. National Institutes of Standards and Technology, What is Assistive
             Technology? Accessed at http://standards.gov/standards_gov/assistiveTechnology.cfm on August 5, 2011.
             16 Home health aides provide nonmedical care in the home for individuals who need assistance with ADLs and

             supervision for individuals with cognitive impairments. They may be licensed but do not provide medical care.
             Bureau of Labor Statistics, Home Health Aides and Personal and Home Care Aides. Accessed at
             http://www.bls.gov/oco/ocos326.htm on October 3, 2011.
             17 Adult day services are structured, comprehensive programs provided for less than 24 hours at a community-
             based center to care for functionally impaired adults. National Clearinghouse for Long-Term Care Information,
             Glossary. Accessed at http://www.longtermcare.gov/ltc/Main_Site/Site_Utilities/Glossary.aspx#l on
             October 4, 2011.
             18 National Clearinghouse for Long-Term Care Information, Costs of Care. Accessed at

             http://www.longtermcare.gov/LTC/Main_Site/Paying/Costs/Index.aspx on September 30, 2011.


OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                            3
             approximately $39,000. 19 The national median rate for a semiprivate
             room in a nursing home or skilled nursing facility is approximately
             $70,000 a year. 20
             Medicare Pays for Limited LTC Services. Four out of five Americans
             incorrectly believe that Medicare provides extensive coverage for LTC
             services. 21 However, Medicare accounts for only 23 percent of total LTC
             spending. 22 Medicare coverage of LTC services includes only select home
             health care services and limited time in a skilled nursing facility. 23, 24
             Medicare coverage of home health services is limited to individuals who
             require part-time skilled nursing care or certain skilled therapy services. 25
             The home health benefit also includes services such as home health aide
             services and medical social services. 26
             Medicare Part A pays in full for up to 20 days in a skilled nursing facility
             directly following a 3-day hospital stay. 27 Beneficiaries must pay
             coinsurance for days 21–100. 28 Medicare does not cover care in skilled
             nursing facilities after 100 days. 29



             19 Assisted living facilities provide personal and medical care for those who are not able to live by themselves

             but do not require the constant care provided by nursing homes. This figure is based on a one-bedroom, single-
             occupancy rate. Genworth Financial, Executive Summary: Genworth 2011 Cost of Care Survey. Accessed at
             http://www.genworth.com/content/etc/medialib/genworth_v2/pdf/ltc_cost_of_care.Par.85518.File.dat/Executive
             %20Summary_gnw.pdf on August 4, 2011.
             20 Nursing homes and skilled nursing facilities provide skilled nursing care 24 hours a day. Ibid.
             21 Kathy Greenlee, Statement before the House Committee on Energy and Commerce Subcommittee on Health,

             March 17, 2011. Accessed at
             http://republicans.energycommerce.house.gov/Media/file/Hearings/Health/031711/Greenlee.pdf on
             August 5, 2011.
             22 For this calculation, total LTC spending includes spending on nursing home and home health services. It
             does not include community-based services, which are financed primarily through Medicaid home- and
             community-based waivers. Kaiser Commission on Medicaid Facts, Medicaid and Long-Term Care Services
             and Supports, February 2009. Accessed at http://www.kff.org/medicaid/upload/2186_06.pdf on
             August 5, 2011.
             23 Home health care is a range of skilled and unskilled health care services provided in the home. CMS, What
             is Home Health Care? Accessed at
             http://www.medicare.gov/homehealthcompare/About/GettingCare/WhatisHomeHealthCare.aspx on
             September 6, 2011.
             24 CMS, Medicare Benefit Policy Manual. Pub. No. 100-02, ch. 7, §10.1. Accessed at

             https://www.cms.gov/manuals/downloads/bp102c07.pdf on September 30, 2011. Social Security Act
             §§ 1812(a)(2)(A).
             25 42 CFR § 409.42(c).
             26 42 CFR § 409.45.
             27 42 CFR § 409.61(b). CMS, Medicare Benefit Policy Manual, Pub. No. 100-02, ch. 8, § 20.1.
             28 42 CFR § 409.61(b). The Medicare Part A beneficiary copayment is $141.50 per day for days 21–100 in a

             skilled nursing facility. HHS, Medicare Premiums and Coinsurance Rates for 2011. Accessed at
             https://questions.medicare.gov/app/answers/detail/a_id/2305/~/medicare-premiums-and-coinsurance-rates-for-
             2011 on August 29, 2011.
             29 Social Security Act §§ 1812(a)(2)(A).



OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                              4
             Medicare also does not pay for assisted living facilities, retirement
             communities, or adult day services. Additionally, the Medicare home
             health benefit does not cover transportation services or services with the
             sole purpose of enabling an individual to continue living at home. 30
             Medicaid Pays for 40 Percent of All LTC Services. In 2009, Medicaid
             spent $111.2 billion on LTC services, and this spending is expected to
             increase as the U.S. population ages. 31 Medicaid accounts for 40 percent
             of total LTC spending. 32
             Medicaid coverage of LTC services varies by State. Medicaid pays for
             care in nursing facilities if recipients meet financial and functional
             eligibility requirements. 33 However, many Americans must first exhaust
             their resources to qualify financially for Medicaid LTC coverage. 34
             Medicaid covers adult day services in some States. Generally, Medicaid
             coverage of home health services includes nursing; home health aides; and
             medical equipment, supplies, and appliances used in the home. 35
             Medicaid may also pay for some home modifications. 36
             Medicaid waiver programs cover some care-related costs in assisted living
             facilities in some States but do not cover room and board.
             Few People Have Private LTC Insurance. Only 8 to 10 percent of
             Americans have private LTC insurance coverage. 37 Private insurance
             accounts for 9 percent of total LTC spending. 38 Age or health status can
             affect the cost of private LTC insurance policies, which often require
             medical underwriting or a review of an applicant’s health status to



             30 CMS, Medicare Benefit Policy Manual. Pub. No. 100-02, ch. 7 §§ 80.2 and 80.4. Accessed at

             https://www.cms.gov/manuals/downloads/bp102c07.pdf on September 30, 2011.
             31 Greenlee, op. cit.
             32 For this calculation, total LTC spending includes only spending on nursing home and home health services.

             It does not include spending on community-based services, which are financed primarily through Medicaid
             home- and community-based waivers. Kaiser Commission on Medicaid Facts, op. cit.
             33 Financial and functional eligibility requirements vary by State. For individuals enrolled in Medicaid and
             Medicare, Medicaid pays for nursing facilities after Medicare coverage is exhausted. HHS, Understanding
             Medicaid Home and Community Services: A Primer. Accessed at http://aspe.hhs.gov/daltcp/reports/primer.pdf
             on August 25, 2011.
             34 National Clearinghouse for Long-Term Care Information, Who Pays for LTC Services? Accessed at

             http://www.longtermcare.gov/LTC/Main_Site/Paying/Costs/Who_Pays.aspx on August 5, 2011.
             35 42 CFR §§ 440.70(b) and 440.180(b).
             36 Social Security Act § 915(c) and CMS, HCBS Waivers Section 915(c). Accessed at

             https://www.cms.gov/MedicaidStWaivProgDemoPGI/05_HCBSWaivers-Section1915(c).asp on
             October 5, 2011.
             37 Greenlee, op. cit.
             38 For this calculation, total LTC spending only includes spending on nursing home and home health services.

             It does not include spending on community-based services, which are financed primarily through Medicaid
             home- and community-based waivers. Kaiser Commission on Medicaid Facts, op. cit.


OEI-04-11-00450          The CLASS Program: 2011 Report to Congress                                                         5
             determine whether he or she is eligible for coverage. 39 Private insurance
             companies use this process to exclude or set higher premiums for
             individuals at the highest risk of needing future LTC services, making it
             difficult for individuals with certain preexisting medical conditions to
             purchase such policies.
             CLASS Program Structure
             The CLASS Act tasks the Secretary with developing, overseeing, and
             administering the CLASS program. On January 28, 2011, the Assistant
             Secretary for Aging established a CLASS Office responsible for
             developing, overseeing, and administering the CLASS program. 40
             The CLASS Office is to coordinate with other Federal departments and
             agencies (e.g., the Department of the Treasury, the Social Security
             Administration, ASPE) to develop and implement the CLASS program. 41
             To implement the program, AoA must determine details about enrollment;
             the benefit plan; premiums; cash and service benefits; funding; and
             protections from waste, fraud, and abuse.
             Enrollment. Actively employed individuals age 18 and older who earn
             wages or income taxable under the Old-Age, Survivors, and Disability
             Insurance Program or the Railroad Retirement Tax Act are eligible to
             enroll in the CLASS program. 42 The CLASS Act describes two processes
             for enrollment: (1) a process for participating employers to automatically
             enroll eligible employees and withhold CLASS premiums through payroll
             deductions; and (2) an alternative process for individuals who are self-
             employed, have more than one employer, or have an employer that does
             not participate in automatic enrollment. 43, 44 Individuals must have the
             option to waive enrollment at any time. 45
             The CLASS Act prohibits medical underwriting of enrollees, allowing
             individuals with preexisting medical conditions to participate. 46




             39 HHS, Glossary. Accessed at http://www.healthcare.gov/glossary/M/medicalunderwriting.html on
             October 5, 2011.
             40 76 Fed. Reg. 5178 (Jan. 28, 2011).
             41 Between the enactment of the CLASS Act in March 2010 and January 2011, HHS’s Office of the Assistant

             Secretary for Planning and Evaluation (ASPE) led the work on CLASS.
             42 PHSA § 3204(c)(1)–(3). “Actively employed” is defined at PHSA Sec. 3202(2). Certain individuals (e.g.,

             prison inmates and Medicaid recipients who are patients in a hospital or nursing facility) are prohibited from
             enrolling in the CLASS program. PHSA Sec. 3204(c)(4).
             43 PHSA §§ 3204(a)(1) and (e)(1).
             44 PHSA § 3204(a)(2).
             45 PHSA § 3204(b).
             46 PHSA § 3203(b)(3).



OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                            6
             The Benefit Plan. AoA must develop at least three actuarially sound
             benefit plan alternatives. 47 Each alternative must include details about
             premiums, benefit amounts, benefit eligibility, and access to advocacy
             services and advice and counseling. 48
             The CLASS Act established the CLASS Independence Advisory
             Council. 49 The council must evaluate the benefit plan alternatives and
             recommend to the Secretary the plan that “best balances price and benefits
             to meet enrollees’ needs in an actuarially sound manner, while optimizing
             the probability of the long-term sustainability of the program.” 50 The
             President appoints members of the council. Upon receiving the council’s
             recommendation, the Secretary must designate one actuarially sound
             benefit plan to serve as the CLASS Independence Benefit Plan by
             October 1, 2012. 51
             Premiums. Premiums must be based on an actuarial analysis of the
             75-year costs of the program and must ensure program solvency in this
             period. 52 The CLASS Act requires that the monthly premium at
             enrollment generally not change as long as the individual is an active
             enrollee (i.e., is enrolled in the CLASS program and has paid premiums to
             maintain enrollment). 53, 54
             The CLASS Act establishes a monthly premium of $5 for actively
             employed full-time students under the age of 22 and individuals with
             incomes that do not exceed the Federal poverty line. 55 The CLASS Act
             allows the Secretary to increase premiums if required to maintain program
             solvency. 56 However, those premium increases do not apply to active
             enrollees who are 65 and older, have paid premiums for at least 20 years,
             and are not actively employed. 57
             Benefit Eligibility. The CLASS Act requires the Secretary to establish an
             Eligibility Assessment System by January 1, 2012, to provide eligibility



             47 PHSA § 3203(a)(1).
             48 Ibid.
             49 PHSA § 3207(a).
             50 PHSA § 3203(a)(2).
             51 PHSA § 3203(a)(3).
             52 PHSA § 3203(a)(1)(A)(i).
             53 PHSA § 3203(b)(1)(A).
             54 PHSA § 3202(1).
             55 PHSA § 3203(a)(1)(A)(ii)(I). The $5 premium will be increased by the percentage increase in the Consumer

             Price Index for all urban consumers (U.S. city average) each year after 2009. PHSA § 3203(a)(1)(A)(ii)(II).
             56 PHSA § 3203((b)(1)(B)(i). However, the Secretary must maintain a nominal premium.
             57 PHSA § 3203(b)(1)(B)(ii).



OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                         7
             assessments of active enrollees applying for benefits. 58 AoA is responsible
             for assisting the Secretary in meeting this requirement.
             AoA must develop processes to determine benefit eligibility, to appeal
             benefit eligibility denials, and to redetermine benefit eligibility. Benefit
             eligibility determination and redetermination processes must include
             certification by a licensed health care practitioner. 59
             AoA must determine the intervals at which eligible beneficiaries are
             required to submit medical evidence to recertify their eligibility and to
             submit records of benefit expenditures. 60
             To become an eligible beneficiary, an active enrollee must have:
             •    paid CLASS premiums for at least 60 months; 61
             •    paid CLASS premiums for at least 24 consecutive months, if a lapse in
                  premium payments of more than 3 months has occurred; 62
             •    met certain minimum earning requirements for a specified time during
                  the period he/she is enrolled in the CLASS program; 63 and
             •    been determined to have a qualifying functional limitation, as certified
                  by a licensed health care practitioner, that is expected to last more than
                  90 consecutive days. 64
             Cash Benefits. The CLASS Act requires a cash benefit averaging at least
             $50 per day. That amount varies by benefit levels, which are based on a
             scale of functional ability. 65 Eligible beneficiaries may use the cash
             benefit to pay for various nonmedical services and supports needed to
             maintain independence, including:
             •    home modifications,
             •    assistive technology,
             •    accessible transportation,
             •    home care aides, and

             58 PHSA § 3205(a)(2)(A)(i).
             59 PHSA § 3205(a)(2)(B).
             60 PHSA § 3205(c)(6).
             61 PHSA § 3202(6)(A)(i).
             62 PHSA § 3202(6)(A)(iii).
             63 PHSA § 3202(6)(A)(ii). An eligible beneficiary must have earned at least enough money to earn a credit

             toward eligibility for future Social Security benefits (under section 213(d) of the Social Security Act) for at least
             3 calendar years of the first 60 months for which the individual has paid premiums. The Commissioner of
             Social Security sets this amount each year. The law does not establish maximum earnings requirements.
             64 PHSA §§ 3202(6)(B) and 3203(a)(1)(C).
             65 PHSA § 3203(a)(1)(D). There must be at least two, and no more than six, benefit levels. PHSA

             § 3203(a)(1)(D)(ii).


OEI-04-11-00450          The CLASS Program: 2011 Report to Congress                                                             8
             •    personal assistance services. 66
             The CLASS Act also allows eligible beneficiaries to use the cash benefit
             to obtain decisionmaking assistance concerning medical care (e.g.,
             forming advance directives and accepting or receiving medical
             treatment). 67, 68
             Cash benefits must be paid into each eligible beneficiary’s account,
             referred to as the Life Independence Account, on a daily or weekly
             basis. 69, 70 AoA must establish procedures to credit beneficiaries’ Life
             Independence Accounts and to allow them to access their accounts using
             debit cards. 71 AoA must also develop procedures to allow an eligible
             beneficiary’s authorized representatives to access his or her Life
             Independence Account. 72
             Beneficiaries can defer daily or weekly benefits and receive a lump-sum
             payment. Deferred benefits may roll over from month to month but not
             from year to year. 73 AoA, in conjunction with the Secretary of the
             Treasury, must recoup any accrued benefits if a beneficiary dies or fails to
             collect deferred payments after 12 months. 74 All recouped benefits must
             be returned to the CLASS Independence Fund. 75
             The CLASS Act includes special provisions for providing cash benefits to
             eligible beneficiaries enrolled in Medicaid (Medicaid beneficiaries).
             Medicaid beneficiaries in an institutional setting (i.e., a hospital, nursing
             facility, intermediate care facility for the mentally retarded, or institution
             for mental diseases) retain 5 percent of their cash benefit while 95 percent
             must be applied to the facility’s cost of providing the beneficiary’s care. 76
             In some States, Medicaid beneficiaries receiving home- and community-
             based services or Program of All-Inclusive Care for the Elderly services




             66 PHSA § 3205(c)(1)(B).
             67 PHSA § 3205(c)(1)(B).
             68 Advance directives are written instructions regarding health care decisions to be used if an individual is no
             longer able to make these decisions. HHS, Literature Review on Advance Directives, June 2007. Accessed at
             http://aspe.hhs.gov/daltcp/reports/2007/advdirlr.htm#term on August 31, 2011.
             69 PHSA § 3205(c)(1)(A).
             70 PHSA § 3203(a)(1)(D)(iii).
             71 PHSA § 3205(c)(1)(C)(i) and (ii).
             72 PHSA § 3205(c)(2)(A).
             73 PHSA § 3205(c)(4)(A) and (B).
             74 PHSA § 3205(c)(5)(C)(i).
             75 PHSA § 3205(c)(5)(C)(ii).
             76 PHSA § 3205(c)(1)(D)(i).



OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                              9
             retain 50 percent of their cash benefit. 77 The remaining 50 percent must
             be applied to the State’s cost of providing assistance. 78
             Advocacy Services and Advice and Counseling Services. Advocacy
             services and advice and counseling services are included in the program’s
             administrative costs. 79
             Eligible beneficiaries must be assigned, as needed, an advocacy counselor
             under an agreement with their State Protection and Advocacy System to
             provide:
             •    information regarding how to access the appeals process established
                  for the program,
             •    assistance with the benefit eligibility recertification process, and
             •    other assistance with obtaining services the Secretary will require by
                  regulation. 80, 81
             Upon their request, eligible beneficiaries must be assigned an advice and
             assistance counselor to provide information about:
             •    accessing and coordinating LTC services and supports in the most
                  integrated setting,
             •    possible eligibility for other benefits and services,
             •    developing a service and support plan,
             •    available assistance with decisionmaking concerning medical care,
                  including the right to accept or refuse medical or surgical treatment
                  and to formulate advance directives or other written instructions
                  recognized by State law (e.g., a living will or a durable power of
                  attorney for health care),




             77 PHSA § 3205(c)(1)(D)(ii)(I) and (iii)(I).
             78 PHSA § 3205(c)(1)(D)(ii)(I) and (iii)(I). A State will be paid the remaining cash benefit for eligible

             beneficiaries receiving home- and community-based services only if: (1) the State does not waive the
             requirements of section 1902(a)(1) of the Social Security Act (relating to statewideness) or of section
             1902(a)(10)(B) of the Social Security Act (relating to comparability); and (2) the State offers, at a minimum,
             case management services, personal care services, habilitation services, and respite care. PHSA
             § 3205(c)(1)(D)(ii)(II).
             79 PHSA § 3205(b)(4).

             80 State Protection and Advocacy Systems empower, protect, and advocate on behalf of individuals with

             developmental disabilities. HHS, State Protection and Advocacy Services. Accessed at
             http://www.acf.hhs.gov/programs/add/states/pnafactsheet.html on September 7, 2011.
             81 PHSA § 3205(d)(1).



OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                            10
             •    programs established and services offered under the Assistive
                  Technology Act of 1998, 82 and
             •    other services the Secretary may require by regulation. 83
             Not later than January 1, 2012, the Secretary must enter into an agreement
             with each State’s Protection and Advocacy System to provide advocacy
             services and with public and private entities to provide advice and
             assistance counseling. 84
             Funding. All CLASS premiums must be transferred to a trust fund called
             the CLASS Independence Fund. 85 The Secretary of the Treasury is
             responsible for managing this fund, which must be invested and used to
             pay CLASS administrative expenses and cash benefits. 86 The CLASS Act
             prohibits the use of taxpayer funds to pay for cash benefits. 87
             Providing Quality Assurance and Protecting Against Waste, Fraud, and
             Abuse. AoA must include provisions in the CLASS program to prevent
             fraud and abuse. 88 To protect against conflicts of interest, AoA must
             establish procedures to ensure that all entities that provide services (e.g.,
             the Eligibility Assessment System, State Protection and Advocacy
             Systems, and advocacy counselors) to active enrollees and eligible
             beneficiaries:
             •    have operating procedures to minimize conflicts of interest between
                  the entity and active enrollees or beneficiaries;
             •    provide information about all services and options available to active
                  enrollees or beneficiaries, including services available through other
                  entities;
             •    assist active enrollees or beneficiaries in accessing desired services,
                  regardless of the provider;
             •    report the number of active enrollees and beneficiaries assisted by age,
                  disability, and whether the active enrollees and beneficiaries received
                  services from the entity or another entity; 89


             82 The Assistive Technology Act of 1998 provides grants to States to address the assistive technology needs of
             individuals with disabilities. States have used grants to provide screen readers, computer programs, mechanical
             lifts, and other devices and services to individuals with disabilities. Association of Assistive Technology Act
             Programs, State AT Programs. Accessed at http://www.ataporg.org/atap/projects.php on August 5, 2011.
             83 PHSA § 3205(e).
             84 PHSA § 3205(a)(2)(A)(ii) and (iii).
             85 PHSA § 3204(f)(1).
             86 PHSA § 3206(a).
             87 PHSA § 3208(b).
             88 PHSA § 3208(c).
             89 PHSA does not indicate to whom, or how frequently, entities will report this information.



OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                       11
             •    provide active enrollees and beneficiaries with a list of available
                  service providers that can meet their needs; 90
             •    provide services in the best interests of active enrollees or
                  beneficiaries, if the entity provides counseling or planning services;
                  and
             •    ensure that active enrollees or beneficiaries are informed of any
                  financial interest the entity has in another service provider, if the entity
                  provides counseling or planning services. 91
             AoA must also establish standards of conduct for authorized
             representatives of eligible beneficiaries. These standards must require that
             authorized representatives provide quality services, do not have conflicts
             of interest, and do not misuse benefit payments or otherwise engage in
             fraud or abuse. 92

             METHODOLOGY
             Scope
             We reviewed progress in the development of the CLASS program from
             March 23, 2010, when the CLASS Act was enacted, through October 14,
             2011, when program implementation was suspended. 93 This review
             focuses primarily on AoA’s activities in the four areas specified in the
             CLASS Act’s OIG annual reporting requirement after January 2011, when
             AoA became responsible for developing the program.
             Data Sources
             We obtained data about AoA’s progress in developing the CLASS program
             from interviews with AoA senior management responsible for
             implementation. We interviewed the Chief Operating Officer of the
             CLASS Office, the special advisor to the Chief Operating Officer, and two
             other members of the CLASS Office. AoA also responded to a
             questionnaire and submitted documents to support its interview and
             questionnaire responses. The questionnaire asked AoA to describe its
             progress and challenges in developing the CLASS program. AoA staff
             collaborated to provide one response. It also provided internal documents
             (e.g., meeting agendas, a logistics contract) and public documents (e.g.,



             90 Entities that provide services to CLASS beneficiaries may include the Eligibility Assessment System, State
             Protection and Advocacy Systems, and advocacy counselors. PHSA § 3205(h).
             91 PHSA § 3205(h).
             92 PHSA § 3205(c)(2)(B).
             93 Prior to the establishment of the CLASS Office within AoA in January 2011, ASPE led the work on the

             CLASS program.


OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                      12
             Federal Register notice soliciting nominations for the CLASS
             Independence Advisory Council) to demonstrate its progress.
             Data Analysis
             We analyzed information from interviews and AoA’s responses to the
             questionnaire. We also analyzed the supporting documentation submitted
             by AoA. We used this information to describe the progress AoA reported
             in developing the CLASS program.
             Standards
             This study was conducted in accordance with the Quality Standards for
             Inspection and Evaluation issued by the Council of the Inspectors General
             on Integrity and Efficiency.




OEI-04-11-00450     The CLASS Program: 2011 Report to Congress                      13
             FINDINGS
             On October 14, 2011, the Secretary informed Congress that, based on the
             results of the Department’s analysis, she does not see a viable path for
             implementing the CLASS program. 94 Following this announcement, HHS
             suspended program implementation activities. 95
             This report describes AoA’s activities prior to suspension of program
             activities. OIG will determine the most appropriate way to meet OIG’s
             CLASS Act reporting requirements in future years based on the program’s
             status.
             During our review period, AoA was in the early stages of planning and
             developing the CLASS program. Its priority was to develop benefit plan
             alternatives that would enable the program to be solvent for the required
             75 years. AoA cannot implement the program if the Secretary does not
             designate a benefit plan. The Secretary is not required to designate a
             benefit plan until October 1, 2012. Before program activities were
             suspended, AoA did not expect to collect premiums until 2013 or pay
             benefits until 2018.
             Consistent with the CLASS Act’s OIG reporting requirements, our report
             describes AoA’s activities in developing the program with respect to:
                     I.      providing cash benefits;
                    II.      determining eligibility;
                   III.      providing quality assurance and protecting against waste,
                             fraud, and abuse; and
                   IV.       recouping unpaid and accrued benefits.


                                           I. Providing cash benefits
             To provide cash benefits, AoA must first develop at least three actuarially
             sound benefit plan alternatives to present to the CLASS Independence
             Advisory Council. The Secretary must designate one of the alternatives as
             the CLASS Independence Benefit Plan, which must include details about
             premiums, cash benefit amounts, benefit eligibility, and access to
             advocacy services and advice and counseling services. AoA must



             94 Kathleen Sebelius, Letter to Congress, October 14, 2011. Accessed at
             http://www.hhs.gov/secretary/letter10142011.html on October 15, 2011.
             95 Kathleen Sebelius, HealthCare Blog: The CLASS Program, October 14, 2011. Accessed at

             http://www.healthcare.gov/blog/2011/10/class10142011.html on October 18, 2011.


OEI-04-11-00450           The CLASS Program: 2011 Report to Congress                                   14
             establish procedures for active enrollees to apply for benefits and
             procedures to pay benefits.
             AoA focused on developing actuarially sound benefit plans
             AoA made progress in attempting to develop at least three actuarially
             sound benefit plan alternatives. 96 Because program implementation
             depends on completing this requirement, AoA focused its efforts on
             developing alternatives for the CLASS Independence Benefit Plan. To
             develop benefit plans, AoA assessed program models, collaborated with
             other agencies and experts, and prepared for the appointment of the
             CLASS Independence Advisory Council.
             AoA expected to provide cash benefits in 2018 at the earliest, pending the
             designation of a benefit plan by October 1, 2012. 97 However, HHS
             reported in October 2011 that it was unable to identify an actuarially
             sound benefit plan within the legal requirements of the CLASS Act. 98
             AoA must complete the following requirements pertaining to providing
             cash benefits if the Secretary designates a benefit plan at a later time:
             •    establish procedures for active enrollees to apply for benefits,
             •    establish procedures for crediting beneficiaries’ Life Independence
                  Accounts and allowing beneficiaries to access accounts using a debit
                  card,
             •    establish procedures for crediting institutions caring for Medicaid
                  beneficiaries and States providing Medicaid coverage, and
             •    establish procedures for authorized representatives to access eligible
                  beneficiaries’ Life Independence Accounts.
             AoA Developed and Assessed Program Models. AoA hired a Director of
             Actuarial Integrity and Benefit Design (i.e., Chief Actuary) in January
             2011 to lead AoA in the actuarial modeling and market research activities
             necessary to develop actuarially sound benefit plan alternatives. In June
             2011, the Chief Actuary developed a CLASS Enhancement Plan outlining
             the features that the program should include to be actuarially sound.
             To develop actuarially sound benefit plan alternatives, AoA worked with
             ASPE to assess different program models based on a wide range of


             96 For a detailed analysis of the benefit plan alternatives, see HHS, A Report on the Actuarial, Marketing, and
             Legal Analyses of the CLASS Program. Accessed at http://aspe.hhs.gov/daltcp/reports/2011/class/index.pdf on
             October 15, 2011.
             97 AoA expected enrollment to begin in 2013 at the earliest. Enrollees must pay premiums for 60 months

             before they are eligible to receive benefits, making 2018 the earliest date for benefit payments.
             98 Kathleen Sebelius, Letter to Congress, October 14, 2011. Accessed at

             http://www.hhs.gov/secretary/letter10142011.html on October 15, 2011.


OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                        15
             scenarios (e.g., various participation rates and rates of benefit claims) and
             alternative program features (e.g., various eligibility requirements,
             enrollment procedures, and premium levels). AoA worked with the HHS
             Office of the General Counsel to ensure that the program features under
             consideration met the requirements of the CLASS Act.
             AoA worked to determine potential premiums by estimating enrollment
             rates, enrollment demographics, and the number of active enrollees who
             would collect benefits immediately following the required 5-year vesting
             period. AoA estimated the proportion of direct enrollees likely to become
             eligible for benefits. 99
             Because the expected number of enrollees would affect the benefit plan,
             AoA considered potential marketing strategies for the program to
             maximize enrollment. A larger enrollment would reduce the risk of having
             a disproportionate number of unhealthy enrollees, which could result in
             higher benefit costs or cause the program to be actuarially unsound.
             AoA Collaborated With Other Agencies and Experts. AoA worked with
             Federal actuaries and experts in the LTC insurance field to develop the
             CLASS program. AoA incorporated the information it gathered from
             meetings with experts and actuaries into ongoing benefit plan modeling
             efforts.
             In June 2011, AoA hosted a technical expert meeting on the actuarial
             modeling of the benefit plan alternatives. This meeting included actuaries,
             economists, demographers, sociologists, ASPE staff, and AoA staff. The
             meeting addressed six major issues:
             •    characteristics of likely program enrollees,
             •    future LTC utilization by enrollees,
             •    reasonableness of key assumptions used in potential benefit plans (e.g.,
                  assumptions regarding interest rates, progression of disabilities, and
                  morbidity),
             •    expected participation levels,
             •    alternative benefit plan designs to increase financial stability, and
             •    strategies to improve the program beyond changes to the benefit plan.
             In June 2011, AoA held a meeting with actuaries from CMS, the Social
             Security Administration, and the Office of Personnel Management.

             99 Direct enrollees are individuals who enroll through the method designed for those who are self-employed,

             have more than one employer, or have an employer that does not participate in automatic enrollment. Because
             these individuals are not automatically enrolled and must opt into the program, AoA expects them to generally
             be less healthy than those who are automatically enrolled.


OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                      16
             Participants discussed various benefit plan alternatives, actuarial models
             for the program, and the actuarial certification of the program.
             AoA Prepared for the Appointment of the CLASS Independence Advisory
             Council. AoA is not directly responsible for establishing the CLASS
             Independence Advisory Council but worked with the Secretary to prepare
             for the council’s appointment. The President is responsible for appointing
             members of the council. The Secretary signed a charter for the council on
             November 9, 2010. On November 16, 2010, AoA issued a Federal
             Register Notice soliciting nominees for the council by December 1, 2010,
             and sent the names to the White House. 100 AoA hired a logistics
             contractor in June 2011 to organize 2- to 3-day public meetings for council
             members to attend after their appointment.


                                           II. Determining eligibility
             The CLASS Act requires the Secretary to establish an Eligibility
             Assessment System by January 1, 2012, to provide eligibility assessments
             of active enrollees applying for benefits. AoA must establish procedures
             for determining benefit eligibility, appealing benefit eligibility denials, and
             redetermining benefit eligibility. AoA must also determine intervals at
             which beneficiaries must recertify their eligbility.
             AoA examined legal issues related to establishing an Eligibility
             Assessment System
             The CLASS Act requires the Secretary to establish an Eligibility
             Assessment System by January 1, 2012. However, the Secretary may wait
             until October 1, 2012, to designate a benefit plan. Because the benefit
             plan must contain details about benefit eligibility, AoA reported that
             establishing an Eligibility Assessment System should be contingent upon
             designating a benefit plan. Therefore, AoA worked with the HHS Office
             of the General Counsel on the legal issues surrounding this requirement.
             Because of the 5-year vesting period, AoA reported that 2018 is the
             earliest year active enrollees will be able to submit a claim for benefits and
             have their eligibility assessed.
             AoA must complete the following requirements pertaining to determining
             eligibility if the Secretary designates a benefit plan at a later time:




             100 75 Fed. Reg. 70005 (Nov. 16, 2010).



OEI-04-11-00450        The CLASS Program: 2011 Report to Congress                         17
             •    to establish procedures for benefit eligibility determination, appeals to
                  benefit eligibility denials, and benefit eligibility redeterminations; 101
                  and
             •    to determine intervals at which beneficiaries must recertify their
                  eligibility.


                  III. Providing quality assurance and protecting against
                                  waste, fraud, and abuse
             The CLASS Act requires AoA to include provisions in the CLASS
             program to protect against fraud and abuse. Specifically, AoA must
             establish procedures to ensure that entities providing services to active
             enrollees and eligible beneficiaries comply with conflict-of-interest
             requirements in the law, as well as standards of conduct for authorized
             representatives of beneficiaries.
             AoA developed provisions to protect against waste, fraud, and
             abuse
             AoA developed provisions in benefit plan alternatives intended to protect
             against waste, fraud, and abuse after program implementation. The
             CLASS Enhancement Plan, developed by the Chief Actuary, describes a
             potential list of excluded services and supports that beneficiaries cannot
             purchase with the cash benefit (e.g., food, liquor, housing, luxury items).
             The Enhancement Plan also describes potential reenrollment rules not
             included in the CLASS Act to prevent enrollees from repeatedly lapsing in
             premium payments and then reenrolling permanently when their health
             deteriorates. 102 AoA also established and selected a head of the Office of
             Program Integrity and Compliance within the CLASS Office.
             AoA must complete the following requirements pertaining to providing
             quality assurance and protecting against waste, fraud, and abuse if the
             Secretary designates a benefit plan at a later time:
             •    to establish procedures to ensure that entities providing services (e.g.,
                  advocacy, counseling, and planning services) to active enrollees and
                  beneficiaries comply with the requirements of the law; and
             •    to establish standards of conduct for authorized representatives of
                  eligible beneficiaries.

             101 Benefit eligibility determination and redetermination processes must require certification by a licensed

             health care practitioner. PHSA § 3205(a)(2)(B).
             102 If reenrollment occurs after a lapse in premium payments of between 90 days and 5 years (beginning with
             the first month of the lapse), enrollees will receive credit for paid premiums prior to the lapse. PHSA
             § 3203(b)(1)(C). According to AoA, enrollees could continuously allow premium payments to lapse throughout
             the 5-year vesting period and begin steadily paying premiums only when they need to receive benefits.


OEI-04-11-00450         The CLASS Program: 2011 Report to Congress                                                          18
                       IV. Recouping unpaid and accrued benefits
             In conjunction with the Secretary of the Treasury, AoA must establish a
             mechanism to recoup benefits if a beneficiary dies or fails to collect
             deferred benefits after 12 months. Recouped benefits must be returned to
             the CLASS Independence Fund.
             AoA will establish a mechanism to recoup unpaid and accrued
             benefits if the Secretary designates a benefit plan at a later
             time
             AoA reported that it planned to establish a mechanism to recoup unpaid
             and accrued benefits later in the program development process. If the
             Secretary designated a benefit plan by October 1, 2012, AoA did not
             expect to recoup benefits in the event of a beneficiary death until 2018, the
             earliest year for benefit payments. Because deferred benefits can roll over
             from month to month, but not from year to year, AoA expected to recoup
             deferred benefits in 2019 at the earliest.

             CONCLUSION
             At the time of our review, AoA was in the early stage of CLASS program
             planning and development and focused most of its efforts on developing at
             least three actuarially sound benefit plan alternatives. However, on
             October 14, 2011, the Secretary informed Congress that HHS cannot
             identify a benefit plan that is both actuarially sound for the next 75 years
             and consistent with the requirements of the CLASS Act. Following this
             announcement, HHS suspended program implementation. OIG will
             determine the most appropriate way to meet OIG’s CLASS Act reporting
             requirements in future years based on the program’s status.

             AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
             RESPONSE
             AoA reviewed a draft of this report and had no comments. They noted
             that the report did not contain any recommendations and that HHS has
             suspended work on the program. For the full text of AoA’s comments, see
             Appendix B. AoA provided clarifying and technical comments, which
             were incorporated into the final report.




OEI-04-11-00450     The CLASS Program: 2011 Report to Congress                         19
             APPENDIX A
             OIG Reporting Requirement in the CLASS Act

             PHSA Sec. 3209, 42 USC § 300ll-8
             SEC. 3209. INSPECTOR GENERAL’S REPORT.
             The Inspector General of the Department of Health and Human Services
             shall submit an annual report to the Secretary and Congress relating to the
             overall progress of the CLASS program and of the existence of waste,
             fraud, and abuse in the CLASS program. Each such report shall include
             findings in the following areas:
             (1) The eligibility determination process.
             (2) The provision of cash benefits.
             (3) Quality assurance and protection against waste, fraud, and abuse.
             (4) Recouping of unpaid and accrued benefits.




OEI-04-11-00450     The CLASS Program: 2011 Report to Congress                        20
                           APPENDIX B
                           Agency Comments

      ,.»'U....fQJ

    /+ ~
   ,,-4                    DEPARTMENT OF HEALTH &. HUMAN SERVICES 	                                Office of the Assistant Secretary
                                                                                                   Administration on Aging

                                                                                                   Washington D.C. 20201



                                                            NOV    2~Oll




                     TO:            Daniel R. Levinson
                                    Inspector General

                     FROM:          Kathy Greenlee
                                                         /S/
                                    Assistant Secretaryfor Aging

                     SUBJECT:       OIG Draft Report: Community Living Assistance Services and Supports Program:
                                    2011 Report to Congress, OEI-04-11-00450



                     Thank you for the opportunity to comment on the subject OIG draft report. We appreciate your
                     staff's professionalism and collegiality in conducting this review and preparing this report. As
                     stated in the report, on October 14,2011, the Secretary informed Congress that she does not see a
                     viable path for implementing the CLASS program, and we have suspended work on the program.

                     The draft 010 report does not contain any recommendation, and we do not have any comments on
                     the report.

                     The Administration on Aging would again like to thank the OIO for their work in conducting this
                     review. If we can be of further assistance, please let me know.




OEI-04-11-00450                     The CLASS Program: 2011 Report to Congress                                                         21
             ACKNOWLEDGMENTS
             This report was prepared under the direction of Dwayne Grant, Regional
             Inspector General for Evaluation and Inspections in the Atlanta regional
             office, and Jaime R. Durley, Deputy Regional Inspector General.
             Sarah Langford served as the lead analyst for this study. Other principal
             Office of Evaluation and Inspections staff from the Atlanta regional office
             who contributed to the report include Starr Kidda and Janna Sayer; central
             office staff who contributed include Heather Barton.




OEI-04-11-00450     The CLASS Program: 2011 Report to Congress                          22
                      Office of Inspector General
                                         http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out through
a nationwide network of audits, investigations, and inspections conducted by the following operating
components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all
50 States and the District of Columbia, OI utilizes its resources by actively coordinating with the
Department of Justice and other Federal, State, and local law enforcement authorities. The investigative
efforts of OI often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
